U.S. Department of the Interior
Office of Inspector General




       ADVISORY REPORT


   RESOURCE ADVISORY COUNCILS,
 RANGELAND MANAGEMENT PROGRAM,
   BUREAU OF LAND MANAGEMENT

             REPORT NO. 98-I-646
              SEPTEMBER 1998




                                   1
                                                                                   C-IN-BLM-OOl-98D


                United States Department of the Interior
                                 OFFICE OF INSPECTOR GENERAL
                                          Washington, DC. 20240




                                   ADVISORY REPORT


Memorandum

To:          Director, Bureau of Land Management

From:        Robert J. Williams fl&.&< r 4 _ L4~L-d i 4tv
             Assistant Inspector General for Audits

Subject:     Advisory Report on the Resource Advisory Councils, Rangeland Management
             Program, Bureau of Land Management (No. 98-I-646)


                                      INTRODUCTION

This report presents the results of our audit of the Resource Advisory Councils of the Bureau
of Land Management’s Rangeland Management Program. The original objective ofthe audit
was to determine whether the Bureau had effectively implemented land use decisions during
fiscal years 1996, 1997, and 1998 (through February) to improve rangeland conditions.
However, effective August 2 1, 1995, the Bureau revised its grazing regulations to provide
fundamental standards and guidelines for assessing rangeland health. At the time of the
audit, these standards and guidelines had not been implemented. Accordingly, we deferred
our audit of rangeland conditions until the standards and guidelines were fully implemented.
During the entrance conference on October 30,1997, the Bureau requested that we revise our
objective to review the effectiveness of the Resource Advisory Councils,’ which were
established to assist the Bureau in developing the new standards and guidelines and in
advising the Bureau on land use policy issues.




‘The Code of Federal Regulations (43 CFR 1784) states that Resource Advisory Councils will consist of
members who have diverse interests that provide for public participation in the preparation and execution of
plans and programs for the management of public lands.
BACKGROUND

The Bureau of Land Management is responsible for managing, protecting, and improving
about 260 million acres of public land in the western states, including about 166 million
acres of rangeland. The Bureau’s Rangeland Management Program involves managing
rangeland ecosystems to ensure their health, natural diversity, and long-term productivity.
Rangeland management activities include administering livestock grazing permits,
supporting wildlife habitats, serving wild horse and burro needs, promoting watershed health,
and maintaining and improving the condition of rangelands to serve a variety of uses. The
rangelands provide forage for about 3.7 million livestock (cattle and sheep) and 42,000 wild
horses and burros annually.

The basic authority for the Bureau’s livestock grazing program was established by the Taylor
Grazing Act of 1934, as amended, which was enacted, in part, to prevent overgrazing and
soil deterioration on public rangelands and to provide for the orderly use, improvement, and
development of public rangelands. The Federal Land Policy and Management Act of 1976
requires the Secretary of the Interior to prepare and maintain an inventory of all public lands
and their resources. This inventory is to be kept current to reflect changes in conditions.
Further, the Public Rangelands Improvement Act of 1978 required the Bureau to include the
trend in rangeland condition to be maintained as part of the inventory of public lands. The
Bureau based its early inventories on the amount of forage that was available to sustain
livestock and classified rangelands as excellent, good, fair, or poor according to the available
forage. By 1980, the emphasis on inventorying public land had shifted from a forage-based
method to an ecological-based method. As such, rangelands were reclassified according to
the percentage of native plant species, or the potential natural community, that each
rangeland supported. However, the forage-based and the ecological-based classifications
were not comparable, a condition that impeded the Bureau’s ability to complete the inventory
process and determine the trend in the condition of public rangelands, as required by the
Federal Land Policy and Management Act of 1976 and the Public Rangelands Improvement
Act of 1978. As of fiscal year 1996, the Bureau had inventoried 126 million of the
166 million acres ofpublic rangelands, consisting of 86 million acres using ecological-based
data and 40 million acres using forage-based data. Four of the 14 members of the National
                      2
Research Council’s Committee on Rangeland Classification told us that they believed the
Bureau should continue to gather ecological site data for the remaining 80 million acres of
public rangeland and use independent organizations that have expertise in rangeland
management to establish an acceptable methodology for classifying the condition of the
rangelands. For example, in 1994, the National Research Council published “Rangeland
Health-New Methods to Classify, Inventory, and Monitor Rangelands,” which recommended
that standardized indicators and methods for inventorying rangeland health be established.
The publication stated:




‘Members of the National Research Council are drawn from the Councils of the National Academy of Sciences,
the National Academy of Engineering, and the Institute of Medicine.

                                                    2
         An agreed-to standard that can be used to determine whether the capacity of
         these rangelands to produce commodities and satisfy values is being
         conserved, degraded, or improved is needed. The lack of a consistently
         defined standard for acceptable conditions of rangeland ecosystems is the
         most significant limitation to current efforts to assess rangelands. The lack
         of such an agreed-to standard has and continues to confuse the public, the
         U.S. Congress, ranchers, and range scientists themselves.

Effective August 2 1,1995, the Bureau revised its grazing regulations contained in the Code
of Federal Regulations (43 CFR 1780 and 4 100) and on August 30, 1996, issued Instruction
Memorandum No. 96-l 72, “Implementing Standards of Rangeland Health and Guidelines
for Grazing Management,” to implement the revised regulations. Under the revised
regulations, the Bureau’s State Directors, in consultation with Resource Advisory Councils,
are responsible for developing and amending state or regional standards and guidelines to
                               3
address the basic principles needed to help achieve healthy, sustainable rangelands. In
addition, the revised regulations included “fallback standards and guidelines” that should be
used until state or regional standards and guidelines are completed.

The revised grazing regulations also established Resource Advisory Councils to assist the
Bureau in developing rangeland standards, in preparing and implementing land use plans,
and in establishing other long-range plans and management priorities. The Council members
are appointed by the Secretary of the Interior, with membership balanced among three
interest groups: commodity industries, recreational and environmental interests, and local
area interests. All members of a Council are required by the Code (43 CFR 1780) to attend
a course of instruction in the management of rangelands that has been approved by a Bureau
State Director. As of February 1998, there were 24 Resource Advisory Councils
representing 13 states (see the Appendix).

SCOPE

We reviewed the activities of the 24 Resource Advisory Councils in 13 states from their
inception in September 1995 through February 1998 and of the Wyoming Resource Advisory
Council from inception to 1996, when it was not rechartered. Our review included attending
a standards and guidelines implementation workshop hosted by the Bureau in Denver,
Colorado, and Resource Advisory Council meetings in Las Vegas, Nevada, and Montrose,
Colorado. We also visited the Bureau’s Nevada State Office, Carson City and Winnemucca
field offices, and its National Business Center in Denver. In addition, we reviewed the
Bureau’s “National Rangeland Inventory, Monitoring and Evaluation Report, Fiscal Year
1996” and the National Research Council’s “Rangeland Health, New Methods to Classify,
Inventory, and Monitor Rangelands.” We interviewed 88 Council members, including
original members who had been reappointed, and new members from 14 states, including


3These factors are watershed health; nutrient cycling and energy flow; water quality; habitat for endangered,
threatened, proposed, candidate, or special status species; and habitat quality for native plant and animal
populations and communities.

                                                      3
Wyoming, to obtain their opinions on the (1) effectiveness of the Resource Advisory
Councils; (2) representation of interest groups on the Councils; (3) ability to reach consensus
on major land use policy issues; and (4) cooperation of the Bureau, particularly the Bureau’s
responsiveness to their concerns. Further, we interviewed members of the National
Research Council and Bureau program personnel regarding the effectiveness of the Councils.
We also viewed an interactive satellite broadcast between Resource Advisory Council
members and the Secretary of the Interior in conjunction with a Bureau publication titled
“Partners Across the West-Resource Advisory Councils.”

Our audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. As part of our audit, we reviewed the Department of the Interior’s
Accountability Report for fiscal year 1996, which includes information required by the
Federal Managers’ Financial Integrity Act of 1982, and the Bureau’s annual assurance
statement for fiscal year 1997 to determine whether any reported weaknesses were within the
objective and scope of our review. We found that a material weakness was reported by the
Bureau relating to inadequate range monitoring data. To resolve this weakness, the Bureau
issued Instruction Memorandum No. 96- 172, “Implementing Standards of Rangeland Health
and Guidelines for Grazing Management,” and conducted a workshop on implementation of
the new standards and guidelines for rangeland health.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has issued any
audit reports during the past 5 years on the Bureau’s Rangeland Management Program.

                                            DISCUSSION

We concluded that, overall, the Resource Advisory Councils worked effectively with the
Bureau of Land Management. Specifically, they assisted in developing standards and
guidelines for rangeland health, represented and reached consensus among diverse public
interest groups, and advised the Bureau concerning land use decisions. However, we also
noted that all Council members had not received the training required by the Code of Federal
Regulations (43 CFR 1780). In addition, we found that representatives from other Federal
                                                           4
agencies which had land within the authorized boundaries of the Councils were not involved
in the process except in Oregon/Washington and that the Wyoming Council had not been
rechartered.




4Under the Code (43 CFR 1784.6 l), the Councils, as determined by the Bureau State Director, in consultation
with the Governor and other interested parties, may be formed on the basis of state boundaries, Bureau districts,
or “ecoregions.”

                                                        4
Standards

The Code of Federal Regulations (43 CFR 1780 and 4100) established the Resource
Advisory Councils with the objective of providing advice to the Department and the Bureau
on formulating standards and guidelines and executing plans and programs for the use and
management of public lands. Of the 13 states that had existing Councils, we found that only
California and New Mexico did not have standards approved by the Secretary of the Interior.
However, the standards for both states were being reviewed by the Secretary, and the Bureau
indicated that the standards should be approved by the end of 1998. Even though each state
developed its own standards and guidelines for rangeland health, we believe that the
Bureau’s new standards and guidelines for rangeland health should be reviewed by the
National Research Council to independently evaluate the effectiveness of these standards and
guidelines. As such, we suggest that the Bureau coordinate its efforts with the National
Research Council and the U.S. Forest Service to develop, test, and establish indicators of
rangeland health that will be accepted on a national basis.

Consensus

The Code (43 CFR 1780) requires the Councils to represent a balance of diverse interest
groups concerned with rangeland management and express public concerns on land policy
issues. A primary function of the Resource Advisory Councils is to represent and reach
consensus among diverse interest groups. We concluded that the Councils had been
successful in achieving this requirement, as shown in the following examples:

        - For the past 2 years, the Alaska Resource Advisory Council has focused its efforts
on conflicts between state and Federal management of mining activities along the Fortymile
River, which is designated as a wild and scenic river. For example, the Council worked with
the Bureau and the State of Alaska to find a solution involving policy interpretations that
allowed miners to camp while working their claims rather than to propose changes in
regulations or in the wild and scenic river designation.

        - The Dakotas Resource Advisory Council reached consensus on a number of issues,
including rehabilitating the Bear Butte Creek watershed in South Dakota; supporting a land
exchange between the Bureau and the State of North Dakota; and supporting the completion
of the Meridian Oil, Bureau, and U.S. Forest Service mineral exchange in North Dakota.

Land Use Decisions

The Code (43 CFR 1780) requires the Councils to advise the Bureau on land use decisions.
We found that the ability of the Resource Advisory Councils to reach consensus had
facilitated the Bureau’s ability to make land use policy decisions that protect the rangelands
while making the lands open to multiple use, as shown in the following examples by state:




                                              5
        - The Arizona Resource Advisory Group is helping the Bureau develop the Arizona
Recreation Strategy. This strategy focuses on recreation and tourism-related issues and
addresses issues affecting the use of public lands and those affecting the quality of life in the
communities located near public land.

        - The California Desert District Advisory Board provided advice on
(1) implementation of wilderness designations resulting from the 1994 California Desert
Protection Act, (2) establishment of recreation user fees, (3) filming on public lands, (4)
management and use of off-highway vehicles, (5) controversial landfill proposals at Eagle
Mountain and Mesquite, (6) proposed mining operations, and (7) problems associated with
burros on public lands near the Colorado River.

         - The Colorado Front Range Resource Advisory Council provided advice to the
Bureau on issues, including grazing trespass, grazing standards and guideline
implementation, and recreation use. The Council also assisted the Bureau’s Canon City
District in resolving a conflict with a business involved in a jointly managed recreation area.
The Southwest Resource Advisory Council recommended that the Bureau testify in support
of proposed legislation which would create the Black Canyon National Park Complex if the
legislation included a wilderness designation for Gunnison Gorge.

         - After viewing the problem areas within the watershed and visiting with involved
parties, the Upper Columbia-Salmon Clear-water Advisory Council made recommendations
to the Bureau that will help implement the Interior Columbia Basin Ecosystem Management
Project. In addition, the Lower Snake River Advisory Council has provided advice to the
Bureau on issues related to a U.S. Air Force proposal for military training in Idaho, the
Bureau’s Final Resource Management Plan for the Owyhee Resource Area in Idaho, and fire
rehabilitation progress in the Boise Foothills.

The overall effectiveness of Resource Advisory Councils was further illustrated in an
interactive satellite broadcast presented by the Bureau on February 20,1998, to the Resource
Advisory Councils. The broadcast entitled “RACs [Resource Advisory Councils]: Partners
Across the West” provided an opportunity for Council members to participate in an exchange
with the Secretary of the Interior, the Assistant Secretary for Land and Minerals
Management, the Bureau Director, and a panel of Council members. In the presentation, the
Secretary of the Interior, in effect, expanded the role of the Councils by suggesting that they
also focus on solving other public land issues, such as implementing the Federal fire
management policy adopted by the Departments of the Interior and of Agriculture,
combating invasive weeds, applying standards and guidelines to other resources (such as
watershed and recreation management), and improving the land exchange process.

Training

The Code (43 CFR 1780) requires Council members to attend instructional training in
management of rangelands that has been approved by the appropriate Bureau State Director.
However, we found that new Council members were not receiving training on rangeland

                                               6
ecosystems, as required by the revised grazing regulations. Specifically, 7 of the 10 new
members on Colorado’s two Councils had not received any training on rangeland
ecosystems. Additionally, at least 1 new member on each of 11 other Councils also had not
received this training. Bureau officials said that they did not believe that new members
needed the training because the original members had completed the development of the
standards and guidelines. We suggest that the Bureau provide training on rangeland
ecosystems to all Council members because the Councils are still developing standards and
guidelines for other resource areas.

Participation

The Code (43 CFR 1780) does not require representatives from other Federal agencies that
have land within the boundaries of the Councils to participate with the Bureau and the
Councils in land use decisions; however, the final rule for the Code states, “The RACs
[Resource Advisory Councils] will advise the Secretary and BLM [Bureau of Land
Management] - and other agencies as appropriate - on matters relating to multiple use issues
associated with public lands and resources.” We believe that having other agencies
participate in the Council process is advantageous to the Bureau and the other agencies. For
example, we found that in Oregon and Washington, the U.S. Forest Service is a full partner
in the Council’s advisory process. The Southeast Oregon Council’s boundaries include all
or portions of three Bureau field offices and four National Forest Districts. At the time of
our review, the Council was addressing the issues of prescribed fires,j water quality, and
noxious weeds6 for both agencies. We suggest that the Bureau encourage participation from
other Federal agencies as part of the Council’s advisory process.

Wyoming Council

The Code (43 CFR 1780) requires Councils to be established to improve the management
of public rangelands. However, the Wyoming Council has not been rechartered since 1996.
As a result, there is no forum available for the public to participate in the Bureau’s land use
policy decisions other than to respond to environmental impact statements and environmental
assessments, which require notices to be published in local newspapers and the “Federal
Register.” We suggest that the Bureau increase its efforts to reestablish the Wyoming
Council.

On April 7, 1998, we held an exit conference with Bureau officials. In general, the Bureau
concurred with the results of our audit. Additionally, we provided a preliminary draft of this
report to the Bureau on July 3 1,1998. The Bureau did not comment on the preliminary draft.
Because this report does not contain any recommendations, a response is not required.


5As defined by the Society of Rangeland Management, prescribed fires (burning) are a managementtool used
under specific conditions for burning a predetermined area.

6As defined by the Society of Rangeland Management, noxious weeds (species) are undesirable because they
conflict, restrict, or otherwise cause problems under the management objectives.

                                                   7
The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau personnel in the conduct of our review.
                                                                                          APPENDIX


                        RESOURCE ADVISORY COUNCILS

         State                                            Resource Advisorv Councils’


Alaska                                    Alaska Resource Advisory Council

Arizona                                   Arizona Resource Advisory Council

California                                California Desert District Resource Advisory Council’
                                          Central California Resource Advisory Council
                                          Northeastern California Resource Advisory Council
                                          Northwestern California Resource Advisory Council

Colorado                                  Front Range Resource Advisory Council
                                          Northwest Resource Advisory Council
                                          Southwest Resource Advisory Council

Idaho                                     Lower Snake River Resource Advisory Council
                                          Upper Snake River Resource Advisory Council
                                          Upper Columbia/Salmon Clear-water Resource Advisory
                                             Council

Montana/North Dakota and                  Butte Resource Advisory Council
 South Dakota                             Dakotas Resource Advisory Council
                                          Lewistown Resource Advisory Council
                                          Miles City Resource Advisory Council

Nevada                                    Mojave-Southern Great Basin Resource Advisory Council
                                          Northeastern Great Basin Resource Advisory Council
                                          Sierra-Front Northwestern Great Basin Resource Advisory
                                               Council

New Mexico                                New Mexico Resource Advisory Council

Oregon/Washington                         Eastern Washington Resource Advisory Council
                                          John Day-Snake Resource Advisory Council
                                          Southeast Oregon Resource Advisory Council

Utah                                      Utah Resource Advisory Council




‘The Wyoming Resource Advisory Council has not been rechartered since the summer of 1996.

‘The California Desert District Advisory Council was specifically required by the Federal Land Policy and
Management Act of 1976 and was established in 1980.
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:

Sending written documents to:                                    Calling:



                     Within the Continental United States

U.S. Department of the Interior                       Our 24-hour
Office of Inspector General                           Telephone HOTLINE
1849 C Street, N.W.                                   l-800-424-508 1 or
Mail Stop 5341                                        (202) 2085300
Washington, D.C. 20240


                                                      TDD for hearing impaired
                                                      (202) 208-2420 or
                                                      l-800-354-0996



                     Outside the Continental United States

                                     Caribbean Retion

U.S. Department of the Interior                       (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22201

                                    North Pacific Retion

U.S. Department of the Interior                         (67 1) 647-605 1
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free &mbers:
 1-800-424-5081
 T’DD l-800-354-0996

FT’S/Comeercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420

 HOTLINE i.
1849 C Streek N.W.
iMail Stop 5341
Washbvon. D.C. 20240
